LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

August 27, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 21-118:

APPLE INC. V. OPTIS CELLULAR TECHNOLOGY, LLC, ET AL.

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amici Curiae Leading Innovators on
August 27, 2021, I caused service to be made pursuant to Rule 29 on the following counsel for
the Petitioner, Respondents and Invervenor:
PETITIONER:
Catherine Mary Agnes Carroll
Wilmer Cutler Pickering Hale and Dorr
1875 Pennsylvania Avenue, NW
Washington, DC 20006
202-663-6072
catherine.carroll@wilmerhale.com
RESPONDENTS Optis Cellular
Technology, LLC, Optis Wireless
Technology, LLC, and Unwired Planet
International Limited:
Jason Sheasby
Hong Annita Zhong
Irell & Manella LLP
1800 Avenue of the Stars
Los Angeles, CA 90067
(310) 203-7096
jsheasby@irell.com
hzhong@irell.com

INTERVENOR Andrew Hirshfeld,
Performing the Functions and Duties
of the Under Secretary of Commerce
for Intellectual Property and Director
of the United States Patent and
Trademark Office:
Brian Fletcher
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

This service was effected by depositing three copies of the Brief of Amici Curiae Leading
Innovators in an official “first class mail” receptacle of the United States Post Office as well as
by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal
Sworn and subscribed before me this 27th day of August 2021.

